NO. 19-431
IN THE

Supreme Court of the United States
THE LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME,
V.

THE COMMONWEALTH OF PENNSYLVANIA AND
THE STATE OF NEW JERSEY, ET AL.,

Petitioner,

Respondents.

PROOF OF SERVICE
I, Rita L. Hemenway of Bateman & Slade, Inc., hereby declare
that on this twenty-eighth day of October 2019, I have served three (3)
true copies of the Brief of Amici Curiae Residents and Families of
Residents at Homes of the Little Sisters of the Poor in Support of
Petitioner by priority mail, postage prepaid, addressed as follows:
Attorneys for Petitioner
Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
mrienzi@becketlaw.org
Federal Respondents:
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
202-514-2217
SupremeCtBriefs@USDOJ.gov

2

Counsel for Pennsylvania:
Josh Shapiro
Attorney General
Michael J. Fischer
Chief Deputy Attorney General
Aimee D. Thomson
Deputy Attorney General
Office of Attorney General
1600 Arch Street, Suite 300
Philadelphia, PA 19103
(215) 560-2171
mfischer@attorneygeneral.gov
Counsel for New Jersey:
Gurbir S. Grewal
Attorney General
Glenn J. Moramarco
Assistant Attorney General
Elspeth Faiman Hans
Katherine Gregory
Deputy Attorneys General
New Jersey Attorney General’s Office
Richard J. Hughes Justice Complex
25 Market Street
Trenton, NJ 08625
(609) 376-3235
Glenn.Moramarco@law.njoag.gov
Signed under the pains and penalties of perjury,

Rita L. Hemenway
Rita L. Hemenway
NOTARIZED BY:

George D. Bateman
George D. Bateman
My Commission Expires:
May 30, 2025

